                                                           U.S. Department of Justice


                                                           United States Attorney
                                                           District of Maryland


Rod J. Rosenstein                                          36 S. Charles Street                        410-209-4800
United States Attorney                                     Fourth Floor                       TTY/TDD:410-962-4462
                                                           Baltimore, Maryland 21201-2692              410-209-4885
Vickie E. LeDuc                                                                                    FAX 410-962-3091
Public Information Officer                                                                   Vickie.LeDuc@usdoj.gov


January 3, 2013
FOR IMMEDIATE RELEASE                                     CONTACT AUSA VICKIE E. LEDUC or
www.justice.gov/usao/md                                   MARCIA MURPHY at (410) 209-4885


  BALTIMORE MAN SENTENCED FOR SOCIAL SECURITY AND MEDICARE FRAUD

                         Defendant Collected SSA Disability Benefits While Employed By SSA

       Baltimore, Maryland - U.S. District Judge Richard D. Bennett sentenced Christopher George
Perry, age 50, of Baltimore, today to two years in prison followed by three years of supervised
release for social security disability fraud, federal health benefit program fraud and health care fraud.

       The sentence was announced by United States Attorney for the District of Maryland Rod J.
Rosenstein; Special Agent in Charge Michael McGill of the Social Security Administration - Office
of Inspector General, Philadelphia Field Division; and Special Agent in Charge Nicholas DiGiulio,
Office of Investigations, Office of Inspector General of the Department of Health and Human
Services.

        “Christopher Perry defrauded the Social Security Administration and Medicare by collecting
disability benefits for more than a decade although he was able to work, and he continued his scheme
even while he was working as a Social Security Administration employee,” said U.S. Attorney Rod
J. Rosenstein.

        According to evidence presented at the four day trial, Perry was receiving social security-
long term disability benefits since 1996. In 1998, he began receiving Medicare benefits as a result
of his disability. In 2007, Perry also applied for and received a low income subsidy for his
prescription drug benefits under Medicare.

        Perry returned to work in 1996. Perry worked at various jobs and attended college without
disclosing his work activities to the disability section of the Social Security Administration (SSA) or
to Medicare. In June 2007, Perry was hired to be a benefits authorizer with the SSA where he
worked on cases pertaining to long term disability benefits. His salary was approximately $38,000.
Perry continued to receive disability benefits, prescription drug benefits and the low income subsidy,
and never disclosed that he was fully employed to the disability section of SSA or to Medicare. In
2002 and 2007, Perry purchased new automobiles while receiving disability benefits.

       According to evidence introduced at trial, SSA and Medicare collectively overpaid Perry
more than $150,000 in benefits.
      United States Attorney Rod J. Rosenstein praised the Social Security Administration -
OIG and Department of Health and Human Services - OIG for their work in the investigation.
Mr. Rosenstein thanked Assistant U.S. Attorney Sandra Wilkinson, who prosecuted the case.
